          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Hotline Report




        Review of 

        Hotline Complaint 2010-282 

        Report No. 10-P-0165         


        July 15, 2010

Report Contributors:                           Bram Hass
                                               Eric Lewis




Abbreviations

EPA          U.S. Environmental Protection Agency
FLETC        Federal Law Enforcement Training Center
FTR          Federal Travel Regulations
IAG          Interagency Agreement
OIG          Office of Inspector General
OPE          Office of Program Evaluation
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                 WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                           July 15, 2010

MEMORANDUM

SUBJECT:               Review of Hotline Complaint 2010-282
                       Report No. 10-P-0165


FROM:	                 Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:	                   Arthur A. Elkins, Jr.
                       Inspector General

This is a final Hotline report on the subject evaluation conducted by the Office of Program
Evaluation (OPE), Office of Inspector General (OIG) of the U.S. Environmental Protection
Agency (EPA). This report contains findings that describe the problems OPE has identified
and corrective actions OPE recommends. This report represents the opinion of OPE and does
not necessarily represent the final OIG position. Final determination on matters in this report
will be made by the Inspector General in accordance with established audit resolution
procedures. The Inspector General provided comments to our draft report. OPE evaluated
these comments and, where appropriate, made necessary changes in this report. We have
included the response in Appendix A.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $74,077.

Action Required

In accordance with EPA Manual 2750, EPA’s Audit Management Process, you are required to
provide a written response to this report within 90 calendar days. OIG’s response should include
a corrective action plan and planned completion dates for the Recommendations. Your response
will be posted on the OIG’s public Website, along with our comments on your response. Your
response should be provided in an Adobe PDF file that complies with the accessibility
requirements of section 508 of the Rehabilitation Act of 1973, as amended. If your response
contains data that you do not want to be released to the public, you should identify the data for
redaction. We have no objection to the further release of this report to the public. This report
will be available at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact me at (202) 566-0832
or najjum.wade@epa.gov, or Eric Lewis at (202) 566-2664 or lewis.eric@epa.gov.
                                                                                10-P-0165 



Allegation
The OIG reviewed an anonymous Hotline allegation that an EPA OIG employee was
defrauding the government by staying in a hotel instead of using less expensive and
available accommodations at a government training location. The complainant stated that
the employee said he received a waiver for personal reasons. The complainant stated that
others have to use the most reasonable accommodations for the government and
questioned why other OIG employees have to stay on site when the employee in question
did not.

Finding
We could not substantiate the allegation of fraud; however, the actions of the employee
and his supervisor were contrary to existing travel policies and were unnecessarily costly.
This was a waste of government funds. The employee traveled to the training located at a
government facility, the Federal Law Enforcement Training Center (FLETC). Training
program costs at FLETC include tuition, lodging, and meals. The employee in question
opted not to use government-furnished lodging and meals at the facility for personal
reasons. The supervisor authorized commercial lodging and per diem for meals for his
subordinate, even though the government would not benefit from the increased lodging
and meal costs. The employee submitted and the supervisor approved a travel voucher
totaling $2,003.

Criteria
The Federal Travel Regulations (FTR) emphasizes that agencies may only pay expenses
that are essential to the transaction of official business. The FTR provides for reduced
reimbursement when meals are furnished by the government. EPA’s Resources
Management Directive 2550B (Travel Manual) describes the responsibilities of the
traveler and supervisor. Travelers are responsible for:

   •	 Becoming familiar with the FTR and EPA’s travel policies so they can properly
      claim reimbursement for authorized travel.
   •	 Seeking clarification from supervisors or financial staff when needed.
   •	 Exercising prudence and economy when incurring expenses on official travel.
   •	 Paying for additional expenses resulting from scheduling travel for personal
      convenience.

Supervisors are responsible for:

   •	 Providing employees access to the Travel Manual and other travel regulations, as
      well as giving them an opportunity to review these requirements before traveling.




                                           1

                                                                                10-P-0165 



   •	 Ensuring sound financial management of all aspects of official travel, and 

      ensuring that travel is in the best interest of the government. 

   •	 Applying the standards of the travel regulations when authorizing, reviewing, and
      approving travel documents.

The Interagency Agreement (IAG) that sets up a reimbursable agreement between EPA
OIG and FLETC lists projected costs for a number of training courses. The estimated
per-student cost for each course at FLETC’s Glynco, Georgia, location includes lodging
and meals. FLETC policy is to provide lodging to all students unless a waiver is granted
by the student’s agency representative. The lodging is located either on FLETC’s
campus or in contracted hotels or apartments nearby. Reporting instructions e-mailed to
students have a link to the online Student Bulletin, which states that:

       “If a student uses housing other than assigned by FLETC, the costs incurred for
       the 	accommodations will be the responsibility of the student and not
       reimbursable by their agency. The student will be notified to utilize the housing
       assigned by FLETC.”

FLETC Manual 72-01.A, Housing Policies, states that all students must use FLETC
housing. The housing manual also states that both basic and advanced students
requesting housing not covered by the manual must obtain a written waiver from their
agency representative, who should route the written request to the housing office. The
manual does not specify who must approve the waiver. Additionally, as stated in the
Student Bulletin, the student’s agency will not reimburse the student when the student
stays in other than FLETC assigned housing.

Background
FLETC is one of the OIG’s key training providers, offering many advanced courses in
addition to basic-level training. FLETC provides interagency law enforcement training to
about 90 federal agencies. It is headquartered in Glynco, Georgia. The OIG’s 2010
Fiscal Year IAG with FLETC lists 15 courses that include lodging and meals, including
the one attended by the student in this case.

Scope and Methodology

We conducted our review from February 2010 to May 2010 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform our review to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our objectives.




                                          2

                                                                                 10-P-0165 



To accomplish our objectives, we reviewed the FTR, the Agency’s Travel Manual, and
relevant FLETC policy. We conducted interviews with and obtained information from
OIG employees involved with the travel arrangements and course. We also obtained and
reviewed the OIG’s current IAG with FLETC listing the courses and anticipated costs for
fiscal 2010 and billing information for the course in question.

Results
We found that the OIG employee attended the training course at FLETC and did not
lodge or eat meals at FLETC. Tuition for the course the employee attended at FLETC
included government-furnished lodging ($427) and meals ($171) totaling $598. The
estimated total cost to OIG for tuition, lodging, and meals should have been $1,091. The
employee’s travel voucher was submitted and paid for $2,003, which included $1,840 in
additional expenses consisting of:

   •	 $1,188 for lodging,
   •	 $510 for meals and incidental expenses, and
   •	 $142 for hotel tax.

FLETC e-mailed the OIG employee notifying him that he had been accepted into the
class. The e-mail included a link to the FLETC Student Bulletin. The employee
contacted an OIG resident agent assigned to FLETC and notified him in an e-mail
message that he had finalized details for the trip, was staying off base, and would not
need FLETC lodging. The OIG resident agent sent an e-mail to the FLETC Housing
Program Manager as a waiver under the FLETC policy. The OIG resident agent stated
that this e-mail met the FLETC policy’s requirement for a written waiver. Further, the
OIG resident agent stated that immediately after contacting the housing office he sent the
employee an e-mail informing him that advanced students normally stay in FLETC-
provided housing because it is considerably less expensive. He also told the student that
FLETC policy requires agency management approval, which he assumed was obtained,
based on the student’s e-mail and telephone message. The OIG employee told us that:

   •	 When he learned that he was going to training at FLETC, he was not initially
      aware there was a requirement to stay on base as part of the training. His
      supervisor authorized staying off site.
   •	 He had not seen the notification memo until days before he was scheduled to
      depart because he had limited access to his e-mail while on travel status.
   •	 He was told by the FLETC registrar that if he stayed off site, FLETC would credit
      EPA OIG for the usual lodging and meal charges.
   •	 He believed it did not make sense to require someone his age to obtain a waiver to
      stay off site instead of in the barracks and that for any future training, he would be
      willing to pay out of his own pocket for off-site lodging.




                                           3

                                                                                           10-P-0165 



It is apparent that the employee had received notification prior to beginning the travel that
students were required to stay in government-furnished lodging that is less costly for the
government. The OIG resident agent specifically informed the employee that not using
government-furnished quarters required agency approval and a waiver provided to
FLETC. Based on the student’s assertions, the OIG resident agent notified FLETC that
an exemption was needed. Although FLETC does not require a formal written letter or
memo from the student’s supervisor or upper management, we believe the resident agent
should have verified the student’s assertions with EPA OIG management in light of the
expected additional cost that would result. We believe that granting the waiver without
verification was a mistake. Since the OIG resident mistakenly notified FLETC that there
was an agency waiver, FLETC will not bill EPA OIG for the $598 cost of government-
furnished lodging and meals.

Although the employee’s supervisor approved the travel orders, the supervisor stated he
was unaware that using the government lodging at the training center was mandatory for
advanced training. He instructed the employee to stay at a hotel because a hotel was
authorized and approved for the supervisor when he attended FLETC in 2008 and on
other occasions. The employee’s supervisor said he was not aware that other OIG agents
attending advanced training stayed on campus.1 The supervisor believes that the
employee may have shared with him what the OIG resident agent at FLETC told him
about the requirement to use government-furnished lodging and about the waiver, but did
not recall the specifics. He did not initiate any process to issue the agent a waiver to stay
off campus because a waiver had never been required for the supervisor to stay off
campus. He considered the separate hotel accommodations acceptable based on his own
past experience. He said he did not realize that off-campus lodging and meals
contradicted any aspect of the government’s best interest.

Conclusion
In our opinion, the employee’s and supervisor’s actions resulted in wasted public funds.
Travel choices were not in accordance with the FTR and the EPA Travel Manual. The
travel was not conducted in the best interest of the government and was unnecessarily
expensive. The EPA Travel manual states that travelers have the responsibility to
become familiar with the FTR, minimize the cost to the government, seek advice from
supervisors or financial personnel, and bear the additional expense for personal travel.
The employee, even after being cautioned by the OIG resident agent, decided not to use
government-furnished lodging and meals for strictly personal reasons. Both the
supervisor and the employee contend that their actions were consistent with their past
practices. Neither could provide other than personal justifications. Both failed to
exercise fiscal responsibility, making travel choices that were contrary to existing travel
policies and resulted in additional costs. The OIG should issue policy guidance stating
1
  FLETC policy requires basic students to stay in FLETC facilities on campus; it also requires advanced
students to obtain lodging through FLETC. Those accommodations may be on the FLETC campus itself or
in facilities contracted by FLETC. Those costs are included in the cost of the course.


                                                4

                                                                                 10-P-0165 



that OIG policy is to use government lodging and meals at FLETC and will only be
waived with approval of the cognizant AIG.

Recommendations
We recommend that the Inspector General:

       1.	 Take appropriate administrative actions against the individuals involved.

       2. 	 Direct the employee and his supervisor to obtain appropriate federal travel
            training.

       3.	 Issue policy guidance stating that OIG policy is to use government lodging
           and meals at FLETC and will only be waived with approval of the cognizant
           AIG.

Comments on Draft Report and OPE Evaluation
The Inspector General generally agreed with our findings, conclusions, and
recommendations but proposed several changes. We agreed with those changes and
incorporated them into this final report.

He believed that the central issue described was the additional cost to the government,
which could be better characterized as waste instead of abuse. He believed that one of
the draft conclusions and the related recommendation (requiring travelers to get waivers
from the OIG Planning, Analysis, and Results staff with their supervisor’s permission),
was too broad. He suggested and we agreed that the recommendation should require a
policy setting the ability to grant waivers of the requirement to use FLETC-furnished
lodging at the AIG level.

On the first draft recommendation, the Inspector General believed that the proposed
corrective action (to direct the Planning, Analysis, and Results staff to obtain
reimbursement of the excess funds paid to the employee) was too narrowly worded.
Instead, he suggested and we adopted the current recommendation, to take appropriate
administrative actions against the individuals involved.




                                          5

                                                                                                                      10-P-0165



                            Status of Recommendations and
                              Potential Monetary Benefits

                                                                                                                      POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                   BENEFITS (in $000s)

                                                                                                          Planned
     Rec.    Page                                                                                        Completion   Claimed    Agreed To
     No.      No.                          Subject                         Status1    Action Official       Date      Amount      Amount

      1        5	    Take appropriate administrative actions against the        O    Inspector General
                     individuals involved.

      2        5	    Direct the employee and his supervisor to obtain           O    Inspector General
                     appropriate federal travel training.

      3        5	    Issue policy guidance stating that OIG policy is to        O    Inspector General
                     use government lodging and meals at FLETC and
                     will only be waived with approval of the cognizant
                     AIG.


1	    O = recommendation is open with agreed-to corrective actions pending
      C = recommendation is closed with all agreed-to actions completed
      U = recommendation is undecided with resolution efforts in progress




                                                                           6

                                                                                  10-P-0165 



                                                                              Appendix A

                Formal Response to Draft Report

                                        July 9, 2010



MEMORANDUM

SUBJECT:               Formal Response to Draft Report on Hotline
                       Complaint 2010-282
                       Project No. OPE-FY 10-0013

TO:                    Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

        This is the formal response to the subject review by the Office of Program
Evaluation. I agree with the factual presentation, conclusion and recommendations made
in the report as amended by my formal comments.

Comment 1: Finding

        OIG agrees with the finding, but suggests that the central issue is the additional
cost to the government of this travel. That condition could be characterized as waste
rather than abuse.

Comment 2: Conclusion:

        OIG agrees with the conclusion, but believes the recommendation, as stated, is
too broad for the conditions described in the report. OIG suggests a policy requiring the
use of government furnished quarters and lodging at the FLETC facility. The policy
should establish that waiver of that requirement may only be granted by the cognizant
Assistant Inspector General.

Comment 3: Recommendation 1

        OIG believes the corrective action is too narrowly worded. OIG suggests an
alternative recommendation: Inspector General to take the appropriate administrative
actions against individuals involved.



                                            7

                                                                            10-P-0165 



Comment 4: Recommendation 3

       As discussed in the conclusions OIG suggests an alternate recommendation: Issue
policy guidance stating that OIG policy is to use government lodging and meals at
FLETC and will only be waived with approval of the cognizant AIG.




                                              Arthur A. Elkins, Jr. //s//


cc: 	Bill Roderick, Deputy Inspector General
     Mark Bialek, Counsel, OIG
     Eric Lewis, Director for Program Evaluation, Special Reviews




                                         8

